 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL



NEW YORK’S CLAIMS FOR MEDICAID
 SERVICES PROVIDED UNDER ITS
TRAUMATIC BRAIN INJURY WAIVER
PROGRAM DID NOT COMPLY WITH
  CERTAIN FEDERAL AND STATE
        REQUIREMENTS

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                   Daniel R. Levinson
                                                    Inspector General

                                                        May 2013
                                                      A-02-10-01043
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY


 New York State claimed approximately $54 million in Federal Medicaid reimbursement for
 traumatic brain injury waiver program services that were unallowable.


WHY WE DID THIS REVIEW

New York State’s traumatic brain injury (TBI) waiver program allows the New York State
Department of Health (Health Department) to claim Medicaid reimbursement for home and
community-based services (HCBS) provided to individuals with TBIs who would otherwise
require institutionalization in a nursing home. We reviewed two of the three highest paid
providers of Medicaid TBI waiver program services in New York State. These reviews
identified significant unallowable and potentially unallowable Federal reimbursements, so we
audited other New York State TBI waiver program providers in this review.

Our objective was to determine whether the Health Department’s claims for Medicaid
reimbursement for TBI waiver program services complied with certain Federal and State
requirements.

BACKGROUND

Federal regulations require a State agency to provide for an initial evaluation, with annual
reevaluations, of the beneficiary’s need for the level of care that would be provided in an
institution unless the individual receives HCBS. The Health Department’s waiver agreement
with the Centers for Medicare & Medicaid Services (CMS) requires that assessors performing
these evaluations complete certain training requirements. Furthermore, Federal regulations
require that HCBS be furnished under a written plan of care approved by the State agency. In
addition, Federal law requires providers to maintain complete and accurate records to support
any services billed.

In New York State, the Health Department’s Office of Long-Term Care administers the TBI
waiver program through nine contracted regional resource development centers that serve
specific counties throughout New York State. (We refer collectively to these organizations as
“the centers.”)

HOW WE CONDUCTED THIS REVIEW

For the 3-year period January 1, 2007, through December 31, 2009, we reviewed 68,211
beneficiary-months for which the Health Department claimed approximately $196.5 million
($98 million Federal share) for TBI waiver program services by certain providers within
New York State. A beneficiary-month includes all TBI waiver program services for a
beneficiary for 1 month.




New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)            i
WHAT WE FOUND

The Health Department claimed Federal Medicaid reimbursement for some TBI waiver program
services that did not comply with certain Federal and State requirements. The Health
Department properly claimed Medicaid reimbursement for all TBI waiver program services
during 11 of the 138 beneficiary-months in our random sample. However, the Health
Department claimed Medicaid reimbursement for TBI waiver program services that were not
allowable or were potentially unallowable for the 127 remaining beneficiary-months.

The claims for unallowable and potentially unallowable TBI waiver program services were made
because (1) the centers did not ensure and document that all beneficiaries approved for TBI
waiver program services were assessed by certified individuals and determined eligible for those
services, (2) the Health Department did not ensure that the assessors and screeners properly
evaluated beneficiaries for placement in the TBI waiver program, and (3) providers did not
ensure that they documented TBI waiver program services billed and claimed reimbursement
only for allowable ones. We estimated that the Health Department improperly claimed at least
$54,265,195 in Federal Medicaid reimbursement for unallowable TBI waiver program services
and at least $662,510 for potentially unallowable TBI waiver program services.

WHAT WE RECOMMEND

We recommend that the Health Department:

    •   refund $54,265,195 to the Federal Government;

    •   work with CMS to resolve the claims, totaling $662,510, for which Medicaid
        reimbursement may have been unallowable; and

    •   ensure that it complies with certain Federal and State requirements by requiring:

        o the centers to ensure and document that all beneficiaries approved for TBI waiver
          program services have been assessed by certified individuals and are eligible for those
          services,

        o adequate training for assessors on the Federal and State requirements for the TBI
          waiver program, and

        o providers to ensure that they document TBI waiver program services billed and claim
          reimbursement only for allowable ones.




New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                 ii
STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In its comments on our draft report, the State agency generally disagreed with our first
recommendation (financial disallowance), disagreed with our second recommendation (potential
disallowance), and stated that it is implementing procedures to address our final
recommendation. After reviewing the State agency’s comments, we maintain that our findings
and recommendations are valid.




New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)             iii
                                                    TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION...................................................................................................................1

           Why We Did This Review ..........................................................................................1

           Objective ......................................................................................................................1

           Background .................................................................................................................1
                 The Medicaid Program: How It Is Administered ............................................1
                 Home and Community-Based Services Waivers Under the
                  Medicaid Program ..........................................................................................1
                 New York’s Traumatic Brain Injury Waiver Program:
                  How It Is Administered ..................................................................................2

           How We Conducted This Review ..............................................................................3

FINDINGS ...............................................................................................................................4

           Traumatic Brain Injury Waiver Program Services Provided to Beneficiaries
            Not Qualified for Nursing Home Level of Care ....................................................5

           Traumatic Brain Injury Waiver Program Services Not Documented ...................5

           Traumatic Brain Injury Waiver Program Services Not Provided
            in Accordance With an Approved Plan of Care ...................................................6

           Assessments for Traumatic Brain Injury Waiver Program Eligibility
            Conducted by Uncertified Individuals ...................................................................6

           Assessments for Traumatic Brain Injury Waiver Program Eligibility
            Not Documented .......................................................................................................7

           Additional Traumatic Brain Injury Waiver Program Services Potentially
             Unallowable, but Data Insufficient To Determine Eligibility .............................8

           Conclusion ................................................................................................................... 8

RECOMMENDATIONS........................................................................................................8

HEALTH DEPARTMENT COMMENTS ...........................................................................9

OFFICE OF INSPECTOR GENERAL RESPONSE..........................................................9




New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                                                                  iv
APPENDIXES

        A: Audit Scope and Methodology ............................................................................. 11

        B: Statistical Sampling Methodology ....................................................................... 14

        C: Sample Results and Estimates ............................................................................. 16

        D: Summary of Deficiencies for Each Sampled Beneficiary-Month ..................... 18

        E: Federal and State Requirements for Traumatic Brain Injury
            Waiver Program Services ................................................................................. 23

        F: Health Department Comments ............................................................................ 25




New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                                              v
                                           INTRODUCTION

WHY WE DID THIS REVIEW

New York State’s traumatic brain injury (TBI) waiver program allows the New York State
Department of Health (Health Department) to claim Medicaid reimbursement for home and
community-based services (HCBS) provided to individuals with TBIs who would otherwise
require institutionalization in a nursing home. We reviewed two of the three highest paid
providers of Medicaid TBI waiver program services in New York State. These reviews
identified significant unallowable and potentially unallowable Federal reimbursements, so we
audited other New York State TBI waiver program providers in this review.

OBJECTIVE

Our objective was to determine whether the Health Department claimed Federal Medicaid
reimbursement for TBI waiver program services in compliance with certain Federal and State
requirements.

BACKGROUND

The Medicaid Program: How It Is Administered

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with Federal requirements. The Health
Department administers New York State’s Medicaid program.

Home and Community-Based Services Waivers Under the Medicaid Program

Section 1915(c) of the Social Security Act (the Act) authorizes Medicaid HCBS waiver
programs. A State’s HCBS waiver program must be approved by CMS and allows a State to
claim Federal reimbursement for services not usually covered by Medicaid. HCBS are generally
provided to Medicaid-eligible beneficiaries in the community rather than in an institutional
setting.

HCBS may be provided only to beneficiaries who a State agency (the organization that
administers a State’s Medicaid program) determines would, in the absence of such services,
require the Medicaid-covered level of care provided in a hospital, nursing facility, or
intermediate care facility for persons with intellectual disabilities. 1 Also, HCBS must be
furnished under a written plan of care subject to approval by each State’s State agency. Further
requirements include at least annual reevaluations of each beneficiary receiving HCBS.

1
 Changes in terminology are based on Rosa’s Law (P.L. No. 111-256). For more information, see CMS Final Rule,
77 Fed. Reg. 29002, 29021, and 29028 (May 16, 2012).


New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                            1
For an individual to be eligible for HCBS, an assessment of the individual to determine the
services needed to prevent institutionalization must be included in the plan of care. In addition,
the plan of care must specify the medical and other services to be provided, their frequency, and
the type of provider. No Federal financial participation is available under a section 1915(c)
waiver for HCBS furnished without a written plan of care.

New York’s Traumatic Brain Injury Waiver Program: How It Is Administered

The Health Department’s Office of Long-Term Care administers the TBI waiver program
through nine contracted regional resource development centers, which serve specific counties
throughout New York State. (We refer collectively to these organizations as “the centers.”) The
TBI waiver program allows the Health Department to claim Medicaid reimbursement on a fee-
for-service basis for HCBS provided to individuals with TBIs who would otherwise require
institutionalization in a nursing home. 2

During calendar years 2007 through 2009, the Health Department claimed Federal
reimbursement totaling $136 million for TBI waiver program services provided by 231 providers
under the TBI waiver program.

Traumatic Brain Injury Waiver Program Eligibility

To be eligible for the TBI waiver program, a beneficiary must be a Medicaid recipient, have a
diagnosis of TBI, be between the ages of 18 and 64 when applying to the TBI waiver program,
and be assessed to need a nursing home level of care. The Health Department uses two forms,
the Hospital and Community Patient Review Instrument (H/C-PRI) and the SCREEN, to
determine a beneficiary’s eligibility for the TBI waiver program and identify resources available
to the person. The H/C-PRI, which must be completed by a registered nurse, is a clinical tool
used to assess a beneficiary’s condition. The SCREEN, which may be completed by a social
worker, discharge planner, or other professional with experience in psychosocial assessments, is
a referral tool used to identify the care and support available to the beneficiary in the community
setting.

The Health Department contracts with a Quality Improvement Organization 3 to train and certify
individuals to complete the H/C-PRI and the SCREEN. On completion of the training program,
individuals receive an assessor number verifying their ability to complete each form. These
individuals may be employed by providers or by local social services districts.

On the basis of their responses to the H/C-PRI, beneficiaries are assigned to 1 of 16 Resource
Utilization Group II (RUG-II) groupings. The 16 RUG-II groupings are used to determine

2
  Services offered under New York State’s TBI waiver program (the “Home and Community Based Services
Medicaid Waiver for Individuals with Traumatic Brain Injury”) include service coordination, respite, environmental
modifications, independent living skills, structured day programs, substance abuse programs, intensive behavioral
programs, community integration counseling, home and community support services, assistive technology, and
transportation.
3
 Quality Improvement Organizations were established for “promoting the effective, efficient, and economical
delivery of health care services, and of promoting the quality of services…” (section 1862(g) of the Act).


New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                                 2
whether beneficiaries qualify for nursing home level of care. During our audit period,
beneficiaries assigned to 12 of the 16 RUG-II groupings met the Health Department’s
requirements for nursing home level of care. 4 Patients assigned to the four remaining groupings
(Clinically Complex A, Severe Behavioral A, Reduced Physical Functioning A, and Reduced
Physical Functioning B) were not considered qualified for nursing home level of care for most of
our audit period. 5

Traumatic Brain Injury Waiver Program Oversight

Each TBI waiver program beneficiary is required to have an individualized plan of care that,
every 6 months, is reviewed and approved by a regional resource development specialist, who is
an employee of the resource development center. The regional resource development specialist
is responsible for reviewing application packets, including eligibility decisions and plans of care,
and must maintain documentation of each plan of care and level of care assessment for at least 3
years. The regional resource development specialist approves eligibility decisions at the regional
level, with technical oversight provided by the Health Department’s management staff. In
addition, the Health Department’s management staff reviews a minimum of 5 percent of
eligibility decision approvals per year.

HOW WE CONDUCTED THIS REVIEW

Our review covered the Health Department’s claims for Medicaid reimbursement for HCBS
provided under the TBI waiver program during calendar years 2007 through 2009 for selected
providers. 6 During this period, the Health Department claimed $196,505,824 ($98,251,380
Federal share) for TBI waiver program services provided during 68,211 beneficiary-months. 7
From the sampling frame of 68,211 beneficiary-months, we reviewed a stratified random sample
of 138 beneficiary-months.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
4
 Specifically, beneficiaries assigned to the RUG-II groupings Special Care A, Special Care B, Heavy Rehabilitation
A, Heavy Rehabilitation B, Clinically Complex B, Clinically Complex C, Clinically Complex D, Severe Behavioral
B, Severe Behavioral C, Reduced Physical Functioning C, Reduced Physical Functioning D, and Reduced Physical
Functioning E were considered qualified for nursing home level of care.
5
 In November 2009, New York State added these four groupings to its list of RUG-II groupings that qualify for
nursing home level of care (N.Y. Dept. of Health, Recently Adopted Regulations, Pre-Admission Screen Resident
Review (PASRR) Requirements (Nov. 4, 2009)).
6
 We excluded claims related to the two providers we previously reviewed (Review of Medicaid Payments for
Services Provided Under New York’s Section 1915(c) Traumatic Brain Injury Waiver at Venture Forthe, Inc., From
January 1, 2005, Through December 31, 2007, A-02-09-01005, issued May 25, 2011; and Review of Medicaid
Payments for Services Provided Under New York’s Section 1915(c) Traumatic Brain Injury Waiver at Belvedere of
Albany, LLC, From January 1, 2005, Through December 31, 2007, A-02-09-01006, issued June 1, 2011). We also
excluded claims related to those providers audited by the New York State Office of the Medicaid Inspector General
during our audit period.
7
 A beneficiary-month includes all TBI waiver program services for a beneficiary for 1 month. A beneficiary-month
could include multiple services.


New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                                 3
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B contains our
statistical sampling methodology, and Appendix C contains our sample results and estimates.

                                              FINDINGS

The Health Department claimed Federal Medicaid reimbursement for some TBI waiver program
services that did not comply with certain Federal and State requirements. The Health
Department properly claimed Medicaid reimbursement for all TBI waiver program services
during 11 of the 138 beneficiary-months in our random sample. However, the Health
Department claimed Medicaid reimbursement for TBI waiver program services that were not
allowable or were potentially unallowable for the 127 remaining beneficiary-months.

Specifically, TBI waiver program services totaling $362,254 (Federal share) in 122 beneficiary-
months did not comply with Federal and State requirements, and TBI waiver program services
totaling $10,292 (Federal share) in 9 beneficiary-months may not have complied with Federal
and State requirements. Of these 9 beneficiary-months, 4 also contained TBI waiver program
services that were unallowable. Of the 122 beneficiary-months with TBI waiver program
services for which the Health Department improperly claimed Federal Medicaid reimbursement,
66 contained more than 1 deficiency. Appendix D contains a summary of deficiencies, if any,
identified for each sampled beneficiary-month.

The Health Department claimed reimbursement for unallowable and potentially unallowable TBI
waiver program services because:

    •   the centers did not ensure and document that all beneficiaries approved for TBI waiver
        program services were assessed by certified individuals and determined eligible,

    •   the Health Department did not ensure that the assessors and screeners properly evaluated
        beneficiaries for placement in the TBI waiver program, and

    •   providers did not ensure that they documented TBI waiver program services billed and
        that they claimed reimbursement for only allowable ones.

Using our sample results, we estimated that the Health Department improperly claimed at least
$54,265,195 in Federal Medicaid reimbursement for TBI waiver program services that did not
comply with Federal and State requirements during calendar years 2007 through 2009. In
addition, we estimated that the Health Department claimed at least $662,510 in Federal Medicaid
reimbursement for TBI waiver program services that may not have complied with Federal and
State requirements.

For details on the Federal and State requirements related to TBI waiver program services, see
Appendix E.


New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                   4
TRAUMATIC BRAIN INJURY WAIVER PROGRAM SERVICES PROVIDED TO
BENEFICIARIES NOT QUALIFIED FOR NURSING HOME LEVEL OF CARE

The State agency must provide for an initial evaluation of the beneficiary’s need for the level of
care that would be provided in an institution unless the individual receives the HCBS (42 CFR
§ 441.302(c)). Each beneficiary receiving HCBS must also have at least annual reevaluations to
determine whether the beneficiary continues to need the level of care provided and would, but
for the provision of waiver services, be institutionalized (42 CFR § 441.302(c)). The Health
Department’s waiver agreement with CMS states that, to be eligible for the TBI waiver program,
a beneficiary must be assessed to need nursing facility level of care. The Health Department’s
TBI Waiver Program Manual, which provides further clarification of definitions and scope of the
TBI waiver program, states that, to be eligible for the TBI waiver program, a beneficiary must be
assessed to need a “nursing home” level of care as determined by the H/C-PRI and the SCREEN.
The H/C-PRI and the SCREEN assign patients to 1 of 16 RUG-II categories. To meet the
requirements for nursing home level of care, beneficiaries must be assessed to be in 1 of 12
RUG-II groupings that qualify beneficiaries for skilled nursing facility level of care (10 NYCRR
§ 400.12). 8

For 92 beneficiary-months, the Health Department claimed reimbursement for TBI waiver
program services provided to beneficiaries who were assessed by certified individuals to be in
one of the four RUG-II groupings that did not qualify for nursing home level of care. 9 For
example, one beneficiary was assessed at Reduced Physical Functioning A level of care, a RUG-
II grouping that did not qualify for nursing home level of care during most of our audit period.

TRAUMATIC BRAIN INJURY WAIVER PROGRAM SERVICES NOT
DOCUMENTED

States must have agreements with Medicaid providers under which providers agree to keep
records that fully disclose the extent of the services provided to individuals receiving assistance
under a State plan (section 1902(a)(27) of the Act). In addition, Federal cost principles require
providers to maintain documentation of services provided. 10

For 58 beneficiary-months, the Health Department claimed reimbursement for some TBI waiver
program services that were not adequately documented. For these services, providers did not
maintain notes to support the services billed or did not fully document the services billed.


8
  Effective November 4, 2009, the Health Department revised its regulations to include four other RUG-II groupings
to its list of groupings that qualify for skilled nursing facility level of care. (See footnote 5.)
9
  All of the beneficiaries associated with the 92 beneficiary-months were assessed before the November 4, 2009,
regulation change.
10
  Specifically, costs must be adequately documented to be allowable under Federal awards (2 CFR § 225, App. A
§ C.1.j (Office of Management and Budget Circular A-87, Cost Principles for State, Local, and Tribal
Governments)). In addition, Federal financial participation is available only for allowable actual expenditures made
on behalf of eligible beneficiaries for covered services rendered by certified providers (section 2497.1 of CMS’s
State Medicaid Manual).


New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                                     5
TRAUMATIC BRAIN INJURY WAIVER PROGRAM SERVICES NOT PROVIDED IN
ACCORDANCE WITH AN APPROVED PLAN OF CARE

HCBS must be furnished under a written plan of care subject to approval by the State agency
(42 CFR § 441.301(b)(1)(i)). In addition, New York State’s waiver agreement with CMS states
that all waiver services will be furnished pursuant to a written plan of care and that Federal
financial participation will not be claimed for waiver services that are not included in the
individual written plan of care. A plan of care must specify the services to be provided, their
frequency, and the type of provider (section 4442.6 of CMS’s State Medicaid Manual).

For 25 beneficiary-months, the Health Department claimed reimbursement for some TBI waiver
program services that were not in accordance with an approved plan of care. Specifically:

     •   Excess Units Billed. For 17 beneficiary-months, providers claimed reimbursement for
         TBI waiver program services in excess of the number of units allowed in the plan of care.

     •   Services Not Included. For 6 beneficiary-months, providers claimed reimbursement for
         TBI waiver program services not included in the plan of care.

     •   Plan of Care Not Approved. For 2 beneficiary-months, providers claimed
         reimbursement for TBI waiver program services when the beneficiary’s plan of care was
         not approved by the Health Department.

ASSESSMENTS FOR TRAUMATIC BRAIN INJURY WAIVER PROGRAM
ELIGIBILITY CONDUCTED BY UNCERTIFIED INDIVIDUALS

Waiver agreements must include an assurance by the State agency that it will provide for an
evaluation and periodic reevaluations of the need for the level of care provided in an institution
but for the availability of HCBS, including a description of the party or parties responsible for
the evaluation and reevaluation and their qualifications (section 4442.5 of CMS’s State Medicaid
Manual). The Health Department’s waiver agreement with CMS states that, to be eligible for the
TBI waiver program, a beneficiary must be assessed to need the required level of care by
individuals who have completed the Health Department’s H/C-PRI and SCREEN training and
certification program. 11

For 17 beneficiary-months, the Health Department claimed reimbursement for some TBI waiver
program services provided to beneficiaries whose assessments for program eligibility were
conducted by uncertified individuals (i.e., individuals without an assessor number). The centers
did not detect that these assessors had not completed the Health Department’s training and
certification program and, therefore, approved the related TBI waiver program services.
Specifically:



11
   The Health Department assigns “assessor numbers,” which are required to complete the H/C-PRI and the
SCREEN, to registered nurses, social workers, and discharge planning professionals who successfully complete the
training and certification program.


New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                                6
    •   For 7 beneficiary-months, the Health Department was unable to verify that the H/C-PRI
        assessor met New York State training and certification requirements.

    •   For 7 beneficiary-months, the Health Department was unable to verify that the SCREEN
        assessor met New York State training and certification requirements.

    •   For 3 beneficiary-months, the Health Department was unable to verify that both the
        H/C-PRI and SCREEN assessors met New York State training and certification
        requirements.

ASSESSMENTS FOR TRAUMATIC BRAIN INJURY WAIVER PROGRAM
ELIGIBILITY NOT DOCUMENTED

HCBS may be provided only to beneficiaries who a State agency determines would, in the
absence of such services, require the Medicaid-covered level of care provided in a hospital,
nursing facility, or intermediate care facility for persons with intellectual disabilities (section
1915(c) of the Act and 42 CFR § 441.301(b)(1)(iii)). Federal regulations require the State
agency to provide for an initial evaluation of the beneficiary’s need for the level of care that
would be provided in an institution unless the individual receives HCBS (42 CFR § 441.302(c)).
The regulations further require at least annual reevaluations of each beneficiary receiving HCBS.

An assessment of the individual to determine the services needed to prevent institutionalization
must be included in the plan of care (section 4442.6 of CMS’s State Medicaid Manual). The
Health Department’s waiver agreement with CMS states that the TBI service coordinator must
ensure that the beneficiary is assessed at least annually and that the regional resource
development specialist must review the assessment as a requirement for approving the plan of
care.

The Health Department’s waiver agreement with CMS states that individuals with a TBI or other
neurological conditions that result in conditions similar to a TBI are eligible for the waiver.
Federal financial participation is available only for allowable actual expenditures made on behalf
of eligible beneficiaries for covered services rendered by certified providers (section 2497.1 of
CMS’s State Medicaid Manual).

For 14 beneficiary-months, the Health Department claimed reimbursement for some TBI waiver
program services for which an eligibility assessment for the TBI waiver program was not
documented. Despite the lack of documentation, centers approved the related TBI waiver
program services. Specifically:

    •   Annual Reevaluation Missing. For 8 beneficiary-months, neither providers nor the
        associated center provided documentation of the annual reevaluation to determine
        whether TBI waiver program services were needed.

    •   Approved Medical Documentation Missing. For 6 beneficiary-months, neither
        providers nor the associated center provided approved medical documentation indicating
        that the beneficiary had a TBI.


New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                  7
ADDITIONAL TRAUMATIC BRAIN INJURY WAIVER PROGRAM SERVICES
POTENTIALLY UNALLOWABLE, BUT DATA INSUFFICIENT TO DETERMINE
ELIGIBILITY

HCBS may be provided only to beneficiaries who have been determined would, in the absence of
such services, require the Medicaid-covered level of care provided in a hospital, nursing facility,
or intermediate care facility for persons with intellectual disabilities (section 1915(c) of the Act
and 42 CFR § 441.301(b)(1)(iii)). An assessment of the individual to determine the services
needed to prevent institutionalization must be included in the plan of care (section 4442.6 of
CMS’s State Medicaid Manual).

For 9 beneficiary-months, the Health Department claimed reimbursement for TBI waiver
program services to beneficiaries who may not have been eligible to receive those services under
Federal and State requirements. Specifically, the RUG-II groupings for the beneficiaries were
not documented on the H/C-PRIs provided by providers and the centers. As a result, the
associated beneficiaries’ need for nursing home level of care could not be determined.

CONCLUSION

Using our sample results, we estimated that the Health Department improperly claimed at least
$54,265,195 in Federal Medicaid reimbursement for TBI waiver program services that did not
comply with Federal and State requirements during calendar years 2007 through 2009. In
addition, we estimated that the Health Department claimed at least $662,510 in Federal Medicaid
reimbursement for TBI waiver program services that may not have complied with Federal and
State requirements. Specifically, (1) the centers did not ensure and document that all
beneficiaries approved for TBI waiver program services were assessed by certified individuals
and determined eligible for those services, (2) the Health Department did not ensure that the
assessors and screeners properly evaluated beneficiaries for placement in the TBI waiver
program, and (3) providers did not ensure that they documented TBI waiver program services
billed and claimed reimbursement only for allowable ones.

                                      RECOMMENDATIONS

We recommend that the Health Department:

    •   refund $54,265,195 to the Federal Government;

    •   work with CMS to resolve the claims, totaling $662,510, for which Medicaid
        reimbursement may have been unallowable; and

    •   ensure that it complies with certain Federal and State requirements by requiring:

        o the centers to ensure and document that all beneficiaries approved for TBI waiver
          program services have been assessed by certified individuals and are eligible for those
          services,




New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                   8
        o adequate training for assessors on the Federal and State requirements for the TBI
          waiver program, and

        o providers to ensure that they document TBI waiver program services billed and claim
          reimbursement only for allowable ones.

                             HEALTH DEPARTMENT COMMENTS

The State agency generally disagreed with our first recommendation (financial disallowance),
disagreed with our second recommendation (potential disallowance), and stated that it is
implementing procedures to address our final recommendation.

Regarding our first recommendation, the Health Department stated that “not all of the alleged
deficiencies identified [in the report] warrant a full refund and a number of deficiencies are in
dispute.” Specifically, the Health Department disagreed with our finding concerning
beneficiaries not qualified for nursing home level of care and indicated that our interpretation of
what constitutes nursing facility level of care determinations did not consider all relevant
information. The Health Department indicated that the Omnibus Budget Reconciliation Act of
1987 (OBRA 1987) combined all residential health care facilities (i.e., health-related and skilled
nursing facilities) participating in Medicaid into one level of care. The Health Department stated
that eligibility is not based solely on an H/C-PRI form but is supplemented by other documents
and reviews. 12 Regarding our second recommendation, which addressed potentially unallowable
claims submitted for reimbursement, the Health Department stated that the absence of a RUG-II
grouping on an H/C-PRI does not invalidate the need for nursing facility level of care.

See Appendix F for the full text of the State agency comments.

                       OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Health Department’s comments on our draft report, we maintain that our
findings and recommendations are valid.

We maintain that our interpretation of the RUG-II scoring system for determining eligibility for
nursing home level of care is accurate. We agree that OBRA 1987 reclassified skilled nursing
facilities, rehabilitation facilities, and health-related facilities as nursing facilities. Nevertheless,
New York State law retained distinctions between skilled nursing facilities (nursing homes) and
health-related facilities. Section 2801 of the New York Public Health Law defines a “nursing
home” as a facility providing nursing care in addition to lodging, board, and/or health-related
service. This is in contrast to a “facility providing health-related service” (also known as a
“health-related facility”), which section 2801 of the New York Public Health Law defines as a
facility that provides lodging; board; and physical care, including the recording of health



12
  The Health Department stated that the H/C-PRI and the SCREEN are components of a “multi-phase assessment
process for determining eligibility for the TBI waiver program.”



New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                           9
information, dietary supervision, and supervised hygienic services. Health-related facilities
cannot provide nursing care under New York State law as can nursing homes. 13

The Health Department’s suggestion that eligibility can be determined without an H/C-PRI is
inaccurate. The State agency’s waiver program agreement with CMS states that the waiver
program is for individuals who, but for the provision of HCBS, would require “nursing facility”
level of care. The State’s TBI Waiver Program Manual, which provides further clarification of
definitions and scope of the HCBS/TBI waiver services, states that, to be eligible for the TBI
waiver program, a beneficiary must be assessed to need a “nursing home” level of care as
determined by the H/C-PRI and the SCREEN. The H/C-PRI and the SCREEN assign patients to
1 of 16 RUG-II categories. Pursuant to 10 NYCRR § 400.12, patients in four RUG-II categories
meet the requirements for health-related facility level of care. Patients in the other 12 RUG-II
categories meet the requirements for skilled nursing facility level of care. Because health-related
facilities are not the same as nursing homes under New York law, patients in the four RUG-II
categories who require only health-related facility level of care do not need nursing home level
of care. 14

In addition, the regulations cited by the Health Department (10 NYCRR §§ 86-2.30(e) (1) and
(3)) do not support the proposition that eligibility for the TBI waiver program may be based on
documents that supplement the H/C-PRI and the SCREEN. Rather, these regulations provide
that the Health Department may review certain information when auditing a residential health
care facility’s performance in completing H/C-PRIs.




13
  10 NYCRR § 700. 2 also distinguishes between nursing homes, which provide nursing care to patients, from
health-related facilities, which do not.
14
  Effective November 4, 2009, the Health Department revised its regulations to include four other RUG-II
groupings to its list of groupings that qualify for skilled nursing facility level of care. (See footnote 5.)


New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                                   10
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered the Health Department’s claims for Medicaid reimbursement for HCBS
provided under the TBI waiver program during calendar years 2007 through 2009. We limited
our audit to certain Medicaid costs claimed for TBI waiver program services delivered by
selected providers. Specifically, we excluded:

    •   all beneficiary-months for two providers that we previously reviewed—Venture Forthe,
        Inc., and Belvedere of Albany, LLC, and

    •   all beneficiary-months for providers reviewed by New York State’s Office of Medicaid
        Inspector General during our audit period.

After taking into account these exclusions, we determined that our revised sampling frame
consisted of 68,211 beneficiary-months totaling $196,505,824 ($98,251,380 Federal share)
during calendar years 2007 through 2009. We reviewed a stratified random sample of 138
beneficiary-months.

The scope of our audit did not require us to perform a medical review or an evaluation of the
medical necessity for the TBI waiver program services claimed for reimbursement. We did not
assess the Health Department’s overall internal control structure. Rather, we limited our review
of internal controls to those applicable to our objective. We reviewed the providers’ and the
centers’ internal controls for documenting TBI waiver program services billed and claimed for
reimbursement. We did not assess the appropriateness of HCBS payment rates.

We performed our fieldwork at 96 providers’ offices throughout New York State, and at the nine
centers in Binghamton, Buffalo, Islip Terrace, New York City, Queensbury, Schenectady,
Syracuse, Rochester, and White Plains, New York.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal and State requirements;

    •   met with CMS financial and program management officials to gain an understanding of
        the HCBS waiver approval, administration, and assessment processes;

    •   met with Health Department officials to discuss the Health Department’s administration
        and monitoring of the TBI waiver program;

    •   interviewed providers’ and the centers’ officials regarding their TBI waiver program
        policies and procedures;



New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                  11
    •   reconciled the TBI waiver program services that the Health Department claimed for
        Federal reimbursement on the Form CMS-64, Quarterly Medicaid Statement of
        Expenditures for the Medical Assistance Program, to the population of all payments for
        TBI waiver program services to providers statewide obtained from New York State’s
        Medicaid Management Information System for calendar years 2007 through 2009;

    •   obtained from New York State’s Medicaid Management Information System a sampling
        frame of 77,123 beneficiary-months with TBI waiver program services for which the
        Health Department claimed reimbursement totaling $271 million ($136 million Federal
        share) during calendar years 2007 through 2009;

    •   removed from our sampling frame all beneficiary-months for two providers that we
        previously reviewed (Venture Forthe, Inc., and Belvedere of Albany, LLC);

    •   removed from our sampling frame all beneficiary-months for providers reviewed by New
        York State’s Office of Medicaid Inspector General during our audit period;

    •   determined that our revised sampling frame consisted of 68,211 beneficiary-months
        totaling $196,505,824 ($98,251, 380 Federal share) during calendar years 2007 through
        2009;

    •   selected a stratified random sample of 138 beneficiary-months and for each
        beneficiary-month:

        o determined whether the beneficiary was assessed by a certified individual to be
          eligible to participate in the TBI waiver program,

        o determined whether TBI waiver program services were provided in accordance with
          an approved plan of care,

        o determined whether documentation supported the TBI waiver program services
          billed,

        o determined whether the staff members who provided the TBI waiver program
          services met qualification and training requirements, and

        o identified TBI waiver program services that were not provided or documented in
          accordance with Federal and State requirements; and

    •   estimated the unallowable and potentially unallowable Federal Medicaid reimbursement
        paid in the total population of 68,211 beneficiary-months.

See Appendix B for the details of our statistical sampling methodology and Appendix C for our
sample results and estimates.




New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)               12
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)               13
               APPENDIX B: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of beneficiary-months of service provided under New York’s TBI
waiver program for which the Health Department received Medicaid reimbursement during
calendar years 2007 through 2009.

SAMPLING FRAME

The sampling frame was an Access file containing 68,211 beneficiary-months of service totaling
$196,505,824 ($98,251,380 Federal share). We eliminated from the sampling frame all
beneficiary-months for two of the three highest paid providers of TBI waiver program services in
New York State—Venture Forthe, Inc., and Belvedere of Albany, LLC—which we reviewed
previously, and TBI waiver program services for all providers reviewed by New York State’s
Office of Medicaid Inspector General during calendar years 2007 through 2009. The data for
beneficiary-months of service under the New York State TBI waiver program were extracted
from the New York State Medicaid Management Information System.

SAMPLE UNIT

The sample unit was a beneficiary-month during calendar years 2007 through 2009 for which the
Health Department claimed Medicaid reimbursement for services provided under the TBI waiver
program. A beneficiary-month is defined as all TBI waiver program services for one beneficiary
for 1 month.

SAMPLE DESIGN

We used a stratified random sample to review Medicaid payments made to the Health
Department on behalf of beneficiaries enrolled in the New York State TBI waiver program. To
accomplish this, we separated the sampling frame into two strata, as follows:

    •   Stratum 1: beneficiary-months with total payments for TBI waiver program services
        totaling $10,000 or less—68,173 beneficiary-months totaling $195,548,941 ($97,772,939
        Federal share).

    •   Stratum 2: beneficiary-months with total payments for TBI waiver program services
        greater than $10,000—38 beneficiary-months, totaling $956,883 ($478,441 Federal
        share).




New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)               14
SAMPLE SIZE

We selected a sample of 138 beneficiary-months of service:

    •   100 beneficiary-months from stratum 1 and

    •   38 beneficiary-months from stratum 2.

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OAS), statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the sample items in the first stratum. After generating 100 random
numbers for this stratum, we selected the corresponding frame items. We selected for review all
38 beneficiary-months in stratum 2.

ESTIMATION METHODOLOGY

We used OAS statistical software to calculate our estimates. We used the lower limit of the
90-percent confidence interval to estimate the overpayment associated with the unallowable and
potentially unallowable TBI waiver program services in the beneficiary-months.




New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)               15
                   APPENDIX C: SAMPLE RESULTS AND ESTIMATES


  UNALLOWABLE TRAUMATIC BRAIN INJURY WAIVER PROGRAM SERVICES

                                     Sample Details and Results

                                                                     No. of
                                                                   Beneficiary-    Value of
                             Value of                  Value of      Months       Unallowable
           Beneficiary-       Frame                     Sample        With         Services
Stratum     Months in        (Federal       Sample     (Federal    Unallowable     (Federal
             Frame            Share)         Size       Share)      Services        Share)
   1           68,173       $97,772,939        100     $125,058           89       $102,128
   2                38         $478,441          38    $478,441           33       $260,126
 Total         68,211       $98,251,380        138     $603,499          122       $362,254

                   Estimated Value of Unallowable Services (Federal Share)
                    (Limits Calculated for a 90-Percent Confidence Interval)

                                Point estimate                 $69,883,989
                                 Lower limit                   $54,265,195
                                 Upper limit                   $85,502,782


       POTENTIALLY UNALLOWABLE TRAUMATIC BRAIN INJURY WAIVER
                         PROGRAM SERVICES

                                     Sample Details and Results

                                                                      No. of
                                                                   Beneficiary-     Value of
                                                                     Months        Potentially
                             Value of                  Value of       With        Unallowable
Stratum    Beneficiary-       Frame                     Sample      Potentially     Services
            Months in        (Federal       Sample     (Federal    Unallowable      (Federal
             Frame            Share)         Size       Share)       Services        Share)
   1           68,173       $97,772,939        100     $125,058            7         $3,714
   2                38         $478,441          38    $478,441            2         $6,578
 Total         68,211       $98,251,380        138     $603,499            9        $10,292




New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                    16
             Estimated Value of Potentially Unallowable Services (Federal Share)
                   (Limits Calculated for a 90-Percent Confidence Interval)

                                Point estimate                  $2,538,541
                                 Lower limit                      $662,510
                                 Upper limit                    $4,414,571




New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)      17
             APPENDIX D: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED
                               BENEFICIARY-MONTH

                                        Legend
Deficiency Description
    1      Traumatic Brain Injury Waiver Program Services Provided to Beneficiaries Not
           Qualified for Nursing Home Level of Care
    2      Traumatic Brain Injury Waiver Program Services Not Documented
    3      Traumatic Brain Injury Waiver Program Services Not Provided in Accordance With
           an Approved Plan of Care
    4      Assessments for Traumatic Brain Injury Waiver Program Eligibility Conducted by
           Uncertified Individuals
    5      Assessments for Traumatic Brain Injury Waiver Program Eligibility Not Documented

Office of Inspector General Review Determinations for the 138 Sampled Beneficiary-Months

        Sample
      Beneficiary-                                                                                      No. of
              15
       Month            Deficiency 1     Deficiency 2    Deficiency 3   Deficiency 4   Deficiency 5   Deficiencies
        S1-1                  X                                                                            1
        S1-2                  X                                                                            1
        S1-3                  X                                                                            1
        S1-4                  X                                                                            1
        S1-5                                                                                               0
        S1-6                  X                                                                            1
        S1-7                  X                                              X                             2
        S1-8                  X                                                                            1
        S1-9                                                                                               0
        S1-10                 X               X                  X                                         3
        S1-11                 X                                  X                                         2
        S1-12                 X               X                                                            2
        S1-13                 X                                                                            1
        S1-14                 X                                                                            1
        S1-15                 X               X                  X                                         3
        S1-16                 X                                                                            1
        S1-17                 X               X                                                            2
        S1-18                                                                                              0
        S1-19                 X                                                                            1

15
     S1 and S2 indicate stratum 1 and stratum 2, respectively.


New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                                  18
     Sample
   Beneficiary-                                                                                  No. of
     Month          Deficiency 1   Deficiency 2   Deficiency 3   Deficiency 4   Deficiency 5   Deficiencies
     S1-20                                                                                          0
     S1-21               X                                                                          1
     S1-22               X              X                                                           2
     S1-23               X                            X                                             2
     S1-24                              X                                                           1
     S1-25               X              X                                                           2
     S1-26                                                                           X              1
     S1-27               X                                                                          1
     S1-28               X                                                                          1
     S1-29               X                                                                          1
     S1-30                                                                                          0
     S1-31               X              X             X                                             3
     S1-32               X                                            X                             2
     S1-33               X                                                                          1
     S1-34               X              X                                                           2
     S1-35                                                            X                             1
     S1-36               X                                                                          1
     S1-37               X                                                                          1
     S1-38               X                                                                          1
     S1-39               X                            X                                             2
     S1-40               X              X             X                                             3
     S1-41                              X                                                           1
     S1-42                              X                                                           1
     S1-43                              X                                                           1
     S1-44               X                                                                          1
     S1-45               X                                                                          1
     S1-46               X              X                                                           2
     S1-47                                                                                          0
     S1-48               X              X                                                           2
     S1-49               X                                                                          1
     S1-50               X                                                                          1
     S1-51               X                            X                                             2
     S1-52               X              X                                                           2


New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                           19
     Sample
   Beneficiary-                                                                                  No. of
     Month         Deficiency 1   Deficiency 2   Deficiency 3   Deficiency 4    Deficiency 5   Deficiencies
     S1-53               X                                                                          1
     S1-54               X                                                          X               2
     S1-55                             X                                            X               2
     S1-56                                                                          X               1
     S1-57               X             X              X                                             3
     S1-58               X                                                                          1
     S1-59               X                            X                                             2
     S1-60                                                                          X               1
     S1-61               X                                                                          1
     S1-62               X             X              X                                             3
     S1-63               X                                           X                              2
     S1-64               X                                           X                              2
     S1-65               X             X                                                            2
     S1-66               X                                                                          1
     S1-67               X             X                                                            2
     S1-68               X             X                                                            2
     S1-69               X                                                                          1
     S1-70                                                                                          0
     S1-71               X                                                                          1
     S1-72               X             X              X                                             3
     S1-73                                                                                          0
     S1-74               X             X                                                            2
     S1-75               X                                                                          1
     S1-76               X                                           X                              2
     S1-77               X             X                                                            2
     S1-78                                                                                          0
     S1-79               X                                                                          1
     S1-80               X             X                                                            2
     S1-81               X                                                                          1
     S1-82                             X                                            X               2
     S1-83               X                                           X                              2
     S1-84               X                                                                          1
     S1-85                                                                                          0


New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                           20
     Sample
   Beneficiary-                                                                                  No. of
     Month          Deficiency 1   Deficiency 2   Deficiency 3   Deficiency 4   Deficiency 5   Deficiencies
    S1-86                X                                                                          1
    S1-87                X                                                                          1
    S1-88                               X                                                           1
    S1-89                X                                                                          1
    S1-90                               X                                                           1
    S1-91                X                                                                          1
    S1-92                               X              X                                            2
    S1-93                                              X                             X              2
    S1-94                X              X                                            X              3
    S1-95                X              X                                                           2
    S1-96                X              X              X                             X              4
    S1-97                X                                                                          1
    S1-98                X                                                           X              2
    S1-99                                                                                           0
    S1-100               X                                                                          1
     S2-1                               X                             X                             2
     S2-2                               X                                                           1
     S2-3                X              X                                                           2
     S2-4                X              X              X                                            3
     S2-5                X              X                                                           2
     S2-6                               X                                            X              2
     S2-7                X              X              X                                            3
     S2-8                               X              X                                            2
     S2-9                                                                                           0
    S2-10                                                                                           0
    S2-11                                                                                           0
    S2-12                X              X                                                           2
    S2-13                X              X                                                           2
    S2-14                X                                            X                             2
    S2-15                X                                            X                             2
    S2-16                               X                                                           1
    S2-17                X              X                             X                             3
    S2-18                                                                                           0


New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                           21
     Sample
   Beneficiary-                                                                                  No. of
     Month          Deficiency 1   Deficiency 2   Deficiency 3   Deficiency 4   Deficiency 5   Deficiencies
     S2-19                              X              X                                            2
     S2-20                                             X                                            1
     S2-21                              X              X              X                             3
     S2-22               X                                                                          1
     S2-23                              X                             X                             2
     S2-24               X              X                                                           2
     S2-25                                                                                          0
     S2-26                                                            X                             1
     S2-27                              X                             X                             2
     S2-28               X              X                                                           2
     S2-29                              X              X                                            2
     S2-30                              X                                                           1
     S2-31               X              X                                                           2
     S2-32               X              X              X              X                             4
     S2-33               X              X                             X                             3
     S2-34                              X                                            X              2
     S2-35                                                                           X              1
     S2-36                                                                           X              1
     S2-37               X              X              X                                            3
     S2-38               X                             X                                            2
   Category
     Totals         92          58                    25              17            14            206
    122 Beneficiary-Months in Error




New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                           22
             APPENDIX E: FEDERAL AND STATE REQUIREMENTS FOR
             TRAUMATIC BRAIN INJURY WAIVER PROGRAM SERVICES

FEDERAL AND STATE REQUIREMENTS FOR ELIGIBILITY FOR TRAUMATIC
BRAIN INJURY WAIVER PROGRAM SERVICES

Section 1915(c) of the Act authorizes Medicaid HCBS waiver programs. A State’s HCBS
waiver program must be approved by CMS and allows a State to claim Federal reimbursement
for services not usually covered by Medicaid. HCBS are generally provided to Medicaid-eligible
beneficiaries in the community rather than in an institutional setting.

Section 1915(c) of the Act and Federal regulations (42 CFR § 441.301(b)(1)(iii)) provide that
HCBS may be provided only to beneficiaries who have been determined would, in the absence of
such services, require the Medicaid covered level of care provided in a hospital, nursing facility,
or intermediate care facility for persons with intellectual disabilities. Federal regulations
(42 CFR § 441.301(b)(1)(i)) require that HCBS be furnished under a written plan of care subject
to approval by each State’s State agency. In addition, Federal regulations (42 CFR § 441.302(c))
require a State agency to provide for an initial evaluation of the beneficiary’s need for the level
of care that would be provided in an institution unless the individual receives HCBS. The
regulations further require at least annual reevaluations of each beneficiary receiving HCBS.

Section 4442.6 of CMS’s State Medicaid Manual requires that an assessment of the individual to
determine the services needed to prevent institutionalization be included in the plan of care. In
addition, the plan of care must specify the medical and other services to be provided, their
frequency, and the type of provider. No Federal financial participation is available under a
section 1915(c) waiver for HCBS furnished without a written plan of care.

New York State’s waiver agreement with CMS states that to be eligible for the TBI waiver
program, a beneficiary must be assessed to need nursing facility level of care. The Health
Department’s TBI Waiver Program Manual, which provides further clarification of definitions
and scope of the TBI waiver program, states that, to be eligible for the TBI waiver program, a
beneficiary must be assessed to need a “nursing home” level of care as determined by the
H/C-PRI and the SCREEN. The H/C-PRI and the SCREEN assign patients to 1 of 16 RUG-II
categories. New York State regulations say that to meet the requirements for nursing home level
of care, beneficiaries must be assessed to be in 1 of 12 RUG-II groupings that qualify
beneficiaries for skilled nursing facility level of care (10 NYCRR § 400.12).

Specifically, beneficiaries assigned to the RUG-II groupings Special Care A, Special Care B,
Heavy Rehabilitation A, Heavy Rehabilitation B, Clinically Complex B, Clinically Complex C,
Clinically Complex D, Severe Behavioral B, Severe Behavioral C, Reduced Physical
Functioning C, Reduced Physical Functioning D, and Reduced Physical Functioning E were
considered qualified for nursing home level of care. Effective November 4, 2009, the Health
Department revised its regulations to include the four other RUG-II groupings to its list of
groupings that qualify for nursing home level of care (N.Y. Dept. of Health, Recently Adopted
Regulations, PASRR Screen Requirements (Nov. 4, 2009)).




New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                  23
FEDERAL REQUIREMENTS FOR DOCUMENTATION NEEDED TO SUPPORT
TRAUMATIC BRAIN INJURY WAIVER PROGRAM SERVICES BILLED

Section 1902(a)(27) of the Act, 42 U.S.C. § 1396a(a)(27), mandates that States have agreements
with Medicaid providers under which providers agree to keep such records as are necessary fully
to disclose the extent of the services provided to individuals receiving assistance under a State
plan. The Office of Management and Budget Circular A-87, Cost Principles for State, Local,
and Tribal Governments, Att. A, § C.1.j (2 CFR § 225, App. A § C.1.j), requires that costs be
adequately documented to be allowable under Federal awards.

Federal financial participation is available only for allowable actual expenditures made on behalf
of eligible beneficiaries for covered services rendered by certified providers (section 2497.1 of
CMS’s State Medicaid Manual). Expenditures are allowable only to the extent that, when a
claim is filed, the provider has adequate supporting documentation in readily reviewable form to
assure that all applicable Federal requirements have been met.

FEDERAL AND STATE REQUIREMENTS FOR SERVICES BEING PROVIDED IN
ACCORDANCE WITH AN APPROVED PLAN OF CARE

HCBS, by Federal regulation, must be furnished under a written plan of care subject to approval
by the State agency (42 CFR § 441.301(b)(1)(i)). In addition, New York State’s waiver
agreement with CMS states that all waiver services will be furnished pursuant to a written plan
of care and that Federal financial participation will not be claimed for waiver services that are
not included in the individual written plan of care.

A plan of care must specify the services to be provided, their frequency, and the type of provider
(section 4442.6 of CMS’s State Medicaid Manual).

FEDERAL AND STATE REQUIREMENTS FOR TRAINING OF INDIVIDUALS TO
ASSESS TRAUMATIC BRAIN INJURY WAIVER PROGRAM BENEFICIARIES

Section 4442.5 of CMS’s State Medicaid Manual requires waiver agreements to include an
assurance by the State agency that it will provide for an evaluation and periodic reevaluations of
the need for the level of care provided in an institution but for the availability of HCBS,
including a description of the party or parties responsible for the evaluation and reevaluation and
their qualifications.

New York State’s waiver agreement with CMS states that to be eligible for the TBI waiver
program, a beneficiary must be assessed to need the required level of care by individuals who
have completed the Health Department’s H/C-PRI and SCREEN training and certification
program. The Health Department assigns “assessor numbers,” which are required to complete
the H/C-PRI and the SCREEN, to registered nurses, social workers, and discharge planning
professionals who successfully complete the training and certification program.




New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043)                  24
                      APPENDIX F: HEALTH DEPARTMENT COMMENTS 





             ==================~r ~~~pa~~~~K l~================= 

             Nirav R. Shah, M.D., M.P.H.
             Commissioner 	
                                                  HEALTH 	                                               Sue Kelly
                                                                                      Executive Deputy Commissioner




                                                                  December 17, 2012




            Mr. James P. Edert
            Regional Inspector General for Audit Services
            Department of Health and Human Services - Region II
            Jacob Javitz Federal Building
            26 Federal Plaza
            New York, New York I 0278

                                                                  Ref. No: A-02-10-01043

            Dear Mr. Edert:

                   Enclosed are the New York State Department ofHealth 's comments on the U.S.
            Department of Health and Human Services, Office ofln spector General's Draft Audit Report
            A-02-1 0-01043 on "New York's Claims for Medicaid Services Provided Under Its Traumatic
            Brain Injury Waiver Program Did Not Comply With Certain Federal and State Requirements."

                    Thank you for the opportunity to comment.

                                                                  Sincerely,



                                                     -	 ~~        Michael J. Nazar
                                                                  Deputy Comrnissio r
                                                                                                  (
                                                                   for Administration

            enclosure
            cc: 	 Jason Helgerson
                   James C. Cox
                   Diane Christensen
                   Mark Kissinger
                   Stephen Abbott
                   Stephen La Casse
                   Irene Myron
                   John Brooks ·
                   Ronald Farrell
                   Michelle Contreras

                                                   HEALTH.NY.GOV
                                                    facebook.com/NYSDOH
                                                   twitter.com/HealthNYGov




New York State Medicaid Traumatic Brain Injury Waiver Program (A -02-10-01043)                                        25
                                New York State Department of Health 

                                          Comments on the 

                             Department of Health and Human Services 

                                     Office of Inspector General 

                                Draft Audit Report A-02-10-01043 on 

                              New York's Claims for Medicaid Services 

                             Provided Under Its Traumatic Brain Injury 

                            Waiver Program Did Not Comply With Certain 

                                   Federal and State Requirements 


             The following are the New York State Department of Health's (Department) comments in
             response to the U.S. Department of Health and Human Services, Office oflnspector General
             (OIG) Draft Audit Report A-02-10-01043 on "New York's Claims for Medicaid Services
             Provided Under Its Traumatic Brain Injury Waiver Program Did Not Comply With Certain
             Federal and State Requirements."

             Recommendation #1:

             The New York State Health Department should refund $54,265, 195 to the Federal Government.

             Response #1:

            It is the Department's position that not all of the alleged deficiencies identified within this audit
             warrant a full refund and a number of deficiencies are in dispute. Most significantly, OIG
             incorrectly interpreted the Resource Utilization Group II (RUG-II) scores indicating eligibility for
             nursing facility level of care. Additionally, and as per 10 NYCRR §§86-2.30(e) ( 1) and (3),
             eligibility for the TBI waiver program is not based solely on the Hospital and Community Patient
             Review Instrument (H/C PRI or PRI) but is supplemented by a number of other documents and
             reviews that serve to further support the requisite level of care determination. This regulation
             describes the Department's monitoring and review process which includes "the PRI and any
             underlying books, records, and/or documentation which formed the basis for the completion of
             such form."

            As a result of the Omnibus Budget Reconciliation Act of 1987 (OBRA '87), the two different
            levels of nursing faci lity care, "skilled nursing facility" and "health related faci lity", were
            eliminated as ofOctober 1990 in New York State. While the Department did not update its
            regulations to include specific RUG-II groupings, nursing homes continued to provide care for
            persons in the four RUG-II categories which OIG excluded in its literal interpretation of the then
            extant Title 10 NYCRR Section 400.12, and the Department did issue a number of official
            communications to inform nursing homes, local districts and other service providers ofthe
            change:

                • 	 New York State Memorandum 90-43, dated September 27, 1990, informs Residential
                    Health Care Facility operators of the elimination ofth~ distinction between the skilled
                    nursing facility (SNF) and the intermediate care facility (ICF) which is now known as a
                    "health related facility" (HRF) into a single level of care.




New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-1 0-01043)                                      26
                • 	 New York State Memorandum 90-47, dated October 17, 1990, lists the consolidation of
                    requirements for nursing homes and health related facilities into a single level of
                    certification known as "nursing homes."

                • 	 Local Commissioner Memorandum Transmittal # 90-LCM-177 provides official notice
                    that all residential health care facilities were reclassified to one level of care: nursing
                    facilities.

            While New York's regulations did not specifically address the Nursing Facil ity Level of Care
            determinations for its TBI waiver program, the Department adhered to the overarching Federal
            legislation resulting from OBRA '87 which combined SKF and HRF into one level of care.
            Importantly, a person's needs do not change due to the regulatory inclusion or exclusion of a
            score category. The PRJ and SCREEN are components of a multi-phase assessment process for
            determining eligibility for the TBI waiver program. The fu ll assessment process is designed to
            further inform the often difficult task of determining an applicant's degree of cognitive
            functioning and potential for success in the community with waiver services. A full assessment
            of an individual includes, but is not limited to: life history, daily routine, strengths, interests,
            functional abilities, physical or mental conditions, the potential for improvement, communication
            abilities, nutritional status, medications and other related conditions impacting the individual's
            life. Participants receiving waiver services may exhibit mild to severe cognitive impairments
            while showing few physical limitations. The PRJ is not designed to fully capture the severity of
            these cognitive issues in the absence of physical limitations.

            As explained in the 2006 TBI Program Manual, eligibility is determined based on review of the
            application packet which includes: Application for Participation; choice; Medicaid eligibility;
            relevant information to support a diagnosis of a TBI and to confirm the age of onset ofthe TBI; a
            complete proposed Service Plan; identification of a residence; and a completed PRJ /SCREEN
            and Plan of Protective Oversight. Further, the Manual states regarding the Service Plan, "Thi s
            Plan must describe why the indivi dual is at risk for nursing home placement without the services
            ofthe waiver and indicate how the available supports requested and the waiver services identified
            in the Plan will assure the health and welfare ofthe potential participant."

            OIG incorrectly interpreted TBI waiver program policies regarding eligibility being based solely
            on the RUG-II grouping, and the Department is currently undertaking a review of the files
            associated with the 138 beneficiary-months included in the audit sample to identify the indicators
            supporting the need for nursing home level of care. Upon completion, the Department will
            furnish this data to OIG for consideration in finalizing the audit report.

            It is additionally relevant to note that the Department's new Uniform Assessment System (UAS)
            for community based care will replace the PRJ, and is expected to greatly enhance the ability to
            determine an individual's level of care needs and hence, waiver eligibility; all other qualifying
            conditions being met The Department is anticipating implementation ofthe UAS for waiver
            programs in the near future.

            Recommendation #2:

            The New York State Health Department should work with CMS to resolve the claims, totaling
            $662,51 0, for which Medicaid reimbursement may have been unallowable.

                                                              2




New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-10-01043) 	                                    27
             Response #2:

             Absence of the RUG-II score on the PRJ does not invalidate the assessment ofthe individual for
             nursing facility level of care, and OIG has not demonstrated any requirement for the score to be
             recorded on the form .

             Additionally, it is relevant to note that the anticipated implementation of the new determination of
             nursing facility level of care in the community utiliz ing UAS will obviate the need for PRJ and
             RUG-II scores for waiver applicants and participants.

             Recommendation #3:

            The New York State Health Department should ensure that it complies w ith certain Federal and
            State requirements by requiring:

                • 	 the centers to ensure and document that all beneficiaries approved for TBI waiver program
                    services have been assessed by certified individuals and are eligible for those services;

                • 	 adequate training to assessors on the Federal and State requirements for the TBI waiver
                    program; and

                • 	 providers to ensure that they document TBI waiver program services billed and claim
                    reimbursement only for allowable ones.

            Response #3:

            OIG Recommendation: The New York State Health Department should ensure that it complies
            with certain Federal and State requirements by requiring the centers to ensure and document that
            all beneficiaries approvedfor TBI waiver program services have been assessed by certified
            individuals and are eligible for those services.

            The Regional Resource Development Centers' Specialist is an employee of the Department's
            contracted Center with expertise in traumatic brain injuries. The qualifications for this position
            require that the individual "demonstrate expertise in brain injury and extensive familiarity with
            HCBS waivers." However, the assessors are registered professional nurses that have been
            trained and are certified in determining patient level ofcare. Centers are required to ensure and
            document that all beneficiaries are approved for services by certified individuals by verifying the
            presence ofthe assessor's signature and assessment certification number. Centers do not secure
            the assessor on behalf of the person seeking eligibility but are responsible, however, to review the
            results and the recommendations of each assessment when submitted to the center by the Service
            Coordinator.

            The qualifying PRJ certification of the assessor is assured by credentials issued by a contracted
            training entity, Island Peer Review Organization (IPRO), serving as an agent ofthe Department.
            The assessment service agency is responsible for verifying its employed assessors meet required
            PRJ certification standards needed to complete the review instrument. The centers cannot
            evaluate the accuracy of the assessment. Only Registered Professional Nurses who are certified
            assessors trained by the Department's contracted entity can complete the PRJ. It is the

                                                              3




New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-1 0-01043)                                      28
             responsibility ofthe assessor to maintain his/her certification, and to include their assessor
             identification number on the PRI.

             Review ofthe information required by the waiver application permits centers to be able to
             conclude whether the applicant/participant would require care in a residential health care facility
             unless waiver services were provided. If, after reviewing all of the information in the PRI and
             supporting documentation, the center concludes the person does not require waiver services to be
             maintained in the community, the individual would not meet the level of care needed for
             enrollment in the waiver program. This information, in conjunction with the Initial Service
             Plan/Revised Service Plan and Application Packet, details the risk ofnursing home placement
             without the services of the waiver program.

             The Department has implemented improved practices regarding level-of-care assurances which
             now include routine annual reviews of participant files to provide the opportunity for corrective
             actions and follow-up as needed. In addition, center contracts now include a requirement that
             mandates the employment of a PRJ-trained (soon to be UAS) registered nurse evaluator to assist
             in the evaluation/re-evaluation process. This OIG recommendation is also being addressed as part
             of the curricula associated with the roll-out ofUAS. Training will obviate the old process and
             ensure greater accountability and control over assessors. Center staff will be trained on
             implementation of the tool and will complete assessments, with only approved/certified assessors
             able to access the tool to complete evaluations.

            OIG Recommendation: The New York State Health Department should ensure that it complies
            with certain Federal and State requirements by requiring adequate training to assessors on the
            Federal and State requirements for the TBI waiver program.

            TBI waiver program eligibility, and hence federal financial participation, is not wholly based on
            the presence of a fu lly completed PRJ and indicated subset of RUG-II scores. The program, as
            authorized by the federal Centers for Medicare and Medicaid Services, permits other documents
            and mechanisms beyond those completed by the assessors to support the identified level ofcare
            need.

            Title 10 NYCRR Section 400.11 addresses the Assessment of Long Term Care Patients and
            provides that "Hospital/ Community PRI or the PRI as appropriate shall be completed by a
            registered professional nurse who has successfully completed a training program in patient case
            mix assessment approved by the department to train individuals in the completion ofthe patient
            review form (PRI)." The contracted training entity ensures the validity of their training and that
            assessors are competent in the assessment criteria and its application. During the time period of
            the audit, Center staff reviewing PRis were not required to be certified as PRI assessors, so they
            could not possibly have been responsible for confirming the validity of the documents reviewed.
            Their role in reviewing the PRI and other documents was to ascertain information on the
            applicant's clinical history and adaptive living sldlls.

            Prospectively, this OIG recommendation is also being addressed as part of the curricula
            associated with the roll-out ofUAS, which necessitates new training for assessors. Assessors will
            be trained to a high level ofcompetency, and accurate recordkeeping maintained to confirm
            training dates and curricula.


                                                               4




New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-1 0-01043)                                     29
             OIG Recommendation: The New York State Health Department should ensure that it complies
             with certain Federal and State requirements by requiring providers to ensure that they document
             TBI waiver program services billed and claim reimbursement only for allowable ones.

             The TBI Provider Billing Guidelines are being updated to include new information regarding
             billing and record keeping practices. The updated Manual is expected to be posted on the
             Department's eMedNY website before the end of2012. In addition, services and service plan
             development will be better defined, Center staff will continue to train providers at provider
             meetings conducted on a routine basis (a minimum of eight meetings per year), and the topics
             covered at the quarterly meetings with the regional resource development centers have been
             expanded to include: fraud and abuse prevention; concise and accurate documentation; fair
             hearings; quality improvement; and enhancement of programs. Further, representatives from the
             Office of the Medicaid Inspector General (OMIG) have also given presentations on corporate
             compliance and self-disclosure practices for providers.




                                                            5




New York State Medicaid Traumatic Brain Injury Waiver Program (A-02-1 0-01043)                                 30
